Case: 17-10665

Document: 00515724627

Page: 1

Date Filed: 01/28/2021

Untteti States Court of Appeals
for tlje jftftfj Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 28, 2021

No. 17-10665

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Wilbert James Veasey, Jr.; Charity Eleda, R.N.; Jacques
Roy, M.D.; Cynthia Stiger,
Defendants—Appellants.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:12-CR-54

Before Graves, Costa, and Engelhardt, Circuit Judges.
Per Curiam:*
This is a direct criminal appeal by four defendants convicted of
multiple counts in a health care fraud case. On appeal, the defendants
challenge their convictions and sentences. Finding no error, we AFFIRM

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 17-10665

Document: 00515724627

Page: 2

Date Filed: 01/28/2021

No. 17-10665

the judgments in the district court as to all four appellants for the reasons
stated herein.
FACTS AND PROCEDURAL HISTORY
Wilbert James Veasey, Jr. and Cynthia Stiger were the owners and
registered directors of Apple of Your Eye Health Care Services, a home
health care provider in Dallas. Charity Eleda operated Charry HHA. Dr.
Jacques Roy operated a medical company called Medistat and was the
certifying physician for various home health providers. All of these entities
provided services to Medicare beneficiaries.
Medicare is a federal health care program for people who are over the
age of 65 or disabled. Medicare has multiple parts and is administered by the
United States Department of Health and Human Services (HHS) through
the Center for Medicare & Medicaid Services.1 Part A covers hospital
insurance and includes home health services, Part B covers medical
insurance. A health care provider must apply to Medicare and be assigned a
National Provider Identifier (NPI) to be able to provide services to a
Medicare beneficiary and bill Medicare. This requires the provider to follow
certain laws, rules and regulations.
There are additional requirements for home health services under
Medicare. To qualify for home health, a beneficiary must: essentially be
confined to the home; under the care of a physician who certifies that the
beneficiary is homebound; be receiving services under a plan of care
established by and reviewed periodically by the physician; and need skilled
nursing services, physical therapy or speech therapy on an intermittent basis,

1 Medicaid is a state-run program for low-income individuals and children.

. 2

Case: 17-10665

Document: 00515724627

Page: 3

Date Filed: 01/28/2021

No. 17-10665

i.e., fewer than eight hours a day and seven days a week.2 The standard form
for a certification of need and plan of care (POC) is numbered 485. The
physician who prescribes home health must sign the 485 POC before
Medicare will pay the home health agency (HHA) in full. The POC must
include various information including diagnoses, types of services, frequency
of visits, prognosis, rehabilitation potential, functional limitations, activities
permitted, medications, treatments, nutritional requirements, safety
measures, discharge plans and goals. Physicians cannot prescribe services to
an entity in which they have a financial interest.
Between 2004 and 2011, the number of HHAs in Dallas tripled.
Federal authorities3 began investigating Roy based on the large number of
patients he certified for home health. At the time, Roy was first in the nation
in certifying patients and more than double the next highest certifying
physician. Roy was also receiving a large amount of payments from HHAs.
The HHAs included those operated by Veasey, Stiger and Eleda.
Chelsie Drews, a special agent with the FBI and member of the strike
force, testified that, pursuant to the investigation, officials conducted
surveillance and interviewed beneficiaries. Through those interviews,
authorities began to discover evidence of beneficiaries who did not appear to
meet the requisite criteria for home health services. Investigators executed
search warrants at various locations associated with the appellants and the
relevant HHAs. As a result, authorities indicted several individuals,

2 Skilled nursing is a service that must be provided by a registered nurse or a
licensed vocational nurse under the supervision of a registered nurse and cannot be
something that can safely be self-administered or performed by a non-medical person.
3 Various agencies, including the FBI, HHS, Office of the Inspector General, Texas
Attorney General’s Medicaid Fraud Control Unit, and the U.S. Attorney’s Office, created
a health care fraud strike force.

3

Case: 17-10665

Document: 00515724627

Page: 4

Date Filed: 01/28/2021

No. 17-10665

including Roy, Stiger, Veasey, and Eleda, who are the individuals relevant to
this appeal, for conspiracy to commit health care fraud and substantive
counts of health care fraud.
In the multicount superseding indictment: Count 1 charged Roy,
Veasey, Stiger and Eleda with conspiracy to commit health care fraud in
violation of 18 U.S.C. § 1349; Counts 2,3 and 4 charged Roy and Veasey with
health care fraud in violation of 18 U.S.C. § 1347; Counts 5,6,7 charged Roy
with health care fraud; Counts 8,9,10,11 charged Roy and Eleda with health
care fraud; Counts 12-14 charged Eleda with false statements to Medicare in
violation of 42 U.S.C. § 1320a-7b(a)(2); Counts 15 and 16 charged Roy with
false statements relating to health care matters in violation of 18 U.S.C. §
1035; and Count 17 charged Roy with obstruction of justice in violation of 18
U.S.C. § 1505. Before trial, the court dismissed Count 5 on the government’s
motion.
Roy, Veasey, Stiger and Eleda were tried together. Roy was acquitted
on Count 6, but the defendants were convicted on all remaining counts. Roy
was sentenced to 120 months as to each of Counts 1-3, consecutively to each
other; 120 months as to each of Counts 4 and 7-11, to run concurrently with
each other and concurrently with Counts 1-3; and sixty months as to each of
Counts 15-17, to run concurrently with each other, concurrently with Counts
4 and 7-11, and consecutively to Counts 1-3. Roy’s total aggregate sentence
was 420 months, along with six years of supervised release and various
forfeitures. Pursuant to the Mandatory Victims Restitution Act of 1996
(MVRA), Roy was also ordered to pay restitution in the amount of
$268,147,699.15, jointly and severally with Stiger, Veasey, Eleda and three
other defendants who are not parties to this appeal. The restitution would be
disbursed to the Centers for Medicare and Medicaid Services.

4

Case: 17-10665

Document: 00515724627

Page: 5

Date Filed: 01/28/2021

No. 17-10665

Stiger was sentenced to 120 months as to Count 1, three years of
supervised release, and ordered to pay restitution in the amount of
$23,630,777.26, jointly and severally with Roy and Veasey, to be disbursed to
Medicare and Medicaid.
Veasey was sentenced to 120 months as to Count 1 and 90 months as
to Counts 2,3 and 4, to run concurrently to each other and consecutively to
the term in Count 1. Veasey’s total aggregate sentence was 210 months,
along with two years of supervised release, and he was ordered to pay
$23,630,777.26 in restitution, jointly and severally with Roy, Stiger, Eleda,
and three other defendants not parties to this appeal.
Eleda was sentenced to 48 months each as to Counts 1, 8-11 and 1214, to run concurrently, three years of supervised release and ordered to pay
restitution in the amount of $397,294.51, jointly and severally with Roy.
Thereafter, the appellants filed this appeal.
DISCUSSION
I. Whether the district court abused its discretion when it refused to
strike a juror based on perceived bias against the defense.
Roy, Veasey, Stiger and Eleda all assert that the district court abused
its discretion when it refused to remove a juror that they argue demonstrated
bias toward the defense.
A district court may dismiss a juror for “good cause” after trial has
begun. Fed. R. Crim. P. 23(b)(2)(B). We review a district court’s decision
to dismiss a juror for abuse of discretion. United States v. Pruett, 681 F.3d
232, 247 (5th Cir. 2012) (per curiam). “A district court abuses its discretion
only when its ruling is based on an erroneous view of the law or on a clearly
erroneous assessment of the evidence. ” United States v. Ebron> 683 F.3d 105,
126 (5th Cir. 2012). “A factual finding is not clearly erroneous as long as it

5

Case: 17-10665

Document: 00515724627

Page: 6

Date Filed: 01/28/2021

No. 17-10665

is plausible in light of the record as a whole.” Id. at 126-27. “A district
court’s decision to remove a juror is discretionary whenever the judge
becomes convinced that the juror’s abilities to perform his duties become
impaired.” United States v. Virgen-Moreno, 265 F.3d 276,288 (5th Cir. 2001)
(internal marks and citations omitted).
This court has also said that an inability to follow instructions or a lack
of candor may be a valid basis for dismissing a juror. Ebron, 683 F.3d at 127
(internal citations omitted). Stiger’s counsel concedes that her trial counsel
did not join the request to remove the juror. Thus, Stiger would have to meet
the more stringent plain error standard and show an error, that is clear or
obvious and which affects her substantial rights. Fed. R. Civ. P. 52(b); see
also Molina-Martinezv. United States, 136 S.Ct. 1338,1343 (2016); and United
States v. Olano, 507 U.S. 725,732-34 (1993)
During the trial when Roy’s defense counsel was cross-examining
Drews, a juror interrupted the proceedings to give the judge a note. The note
stated: “We need to take a break for the judge. The judge is not alert.
Lawyer is badgering witness. Thank you.” The district court called a bench
conference to discuss the note and ways of handling the situation. Defense
counsel wanted to dismiss the juror as being prejudicial. The government
wanted to ignore the note and move on. The court decided to conduct an in
camera examination of the juror on the record. During this examination, the
court said:
Let me explain a couple things. The lawyer is asking
questions, and they are tough questions. That does not mean
she is being badgered. Nobody has made any objection.
Now, as for you saying I am not alert, I am alert. You
may have heard me say yesterday I had a doctor’s appointment.
The reason I had a doctor ’ s appointment is I had surgery on my
right eye. You may notice it is much redder than the other, and
I was a little concerned because I thought it should be healing

6

Case: 17-10665

Document: 00515724627

Page: 7

Date Filed: 01/28/2021

No. 17-10665

faster, but the doctor said it is doing fine. The vision is okay,
and what it does at times is it becomes irritated, and I will close
it at times because of that. It is healing.
The juror said, “okay. ” The court then continued:
But just so you know, the witness—when tough
questions are being asked or—or the lawyers are asking
questions, all the lawyers are doing is trying to test the witness’
recall, test how she investigated the case and so forth, okay.
Now, if it gets out of line, if he is mistreating her, the
lawyers are going to object or else I am going to step in. It has
not gotten to that point, but I appreciate you being concerned
about me.
The juror replied, “That’s all my intentions [sic]. That was my only
intention. ” The court said: “No, that’s fine. But anyway I am aware of what
is going on and the questions have been tough, and I have shifted positions a
couple of times.” The court also added, “[m]y eye is irritated, but it is not
to the point that I need a break, but I appreciate your concern. ” The juror
again indicated that was her intention, and when asked if she had any
questions, she said: “No, no. I just wanted to make sure everything was fair
on both sides.” The court then stated:
Okay. All right [sic], I will remind you once again your
job is to be fair and impartial to both sides and listen to the
evidence and keep an open mind, and at the conclusion of the
case along with your fellow jurors make a decision as to
whether the defendants are guilty or not guilty based upon what
you have heard in the trial and in conjunction with my
instructions; all right?
The juror replied, “Okay.” The examination concluded and the juror was
instructed not to discuss anything that took place in chambers with the other
jurors.

7

Case: 17-10665

Document: 00515724627

Page: 8

Date Filed: 01/28/2021

No. 17-10665

Defense counsel objected and asked that the juror be struck from the
jury on the belief that she had formed an opinion and, thus, became
disqualified. Defense counsel also argued that, during the original voir dire,
the court had made clear to the jurors that the court would control the
proceedings and they were not to concern themselves with questions of law
or proceedings. Counsel also moved for a mistrial. The court made a finding
that it did not believe the juror had formed any bias at that point and denied
the motions.
The appellants now assert that the district court abused its discretion
by not removing the juror and seating an alternate. Appellants particularly
take issue with the fact that the juror became the presiding juror. However,
the mere fact that she became the presiding juror and signed the verdict form
in no way established bias or that she somehow poisoned the proceedings.
The appellants also take issue with the juror being a health care administrator
at a large hospital who had acknowledged that she had heard patients
complain about home health care and that she was aware that physicians
knew which HHAs they preferred and which they did not. However, those
facts were openly discussed during voir dire and not something discovered
during trial evidencing any kind of bias or suddenly establishing good cause
for dismissal.
The juror indicated to the court that she could be fair and impartial
and follow the court’s instructions. There was nothing to indicate good cause
for removal, a lack of candor, or that the note or discussion in camera
established any specific bias. The note appeared to be an isolated incident.
Thus, under the applicable standard set out above, the appellants are unable
to establish an abuse of discretion, much less plain error in the case of Stiger.

8

Case: 17-10665

Document: 00515724627

Page: 9

Date Filed: 01/28/2021

No. 17-10665

II. Whether the evidence was sufficient to convict Dr. Roy and Cynthia
Stiger.
Roy and Stiger argue that there was insufficient evidence introduced
at trial to support their respective convictions. We review a properly
preserved challenge to the sufficiency of the evidence de novo, but we afford
considerable deference to the jury’s verdict. United States v. Curtis, 635 F.3d
704,717-18 (5th Cir. 2011). We view the evidence in the light most favorable
to the verdict, and we will affirm if any reasonable trier of fact could have
found every element of the offense beyond a reasonable doubt. Id.; see also
United States v. Ford, 558 F.3d 371,375 (5th Cir.2009). “The jury retains the
sole authority to weigh any conflicting evidence and to evaluate the
credibility of the witnesses.” United States v. Grant, 683 F.3d 639, 642 (5th
Cir. 2012) (internal marks and citation omitted). “However, the government
must do more than pile inference upon inference upon which to base a
conspiracy charge.” Id. (internal marks and citation omitted). Under this
standard, the district court’s denials of the motions for judgment of acquittal
do not appear to be in error.
Roy - Counts 1,2-11,15-16,17
Roy asserts that the district court abused its discretion by denying the
motion of acquittal because the defense established that there was no intent
to defraud Medicare. Thus, Roy argues that he could not be convicted of
conspiracy or Medicare fraud since the intent was the missing element for
both charges. Specifically, Roy asserts that the factual determination of
“homebound” is a medical opinion and a difference in opinion cannot
establish an intent to commit fraud. Roy also asserts that none of the three
agreements exposed by the prosecution were about defrauding Medicare.
We disagree.

9

Case: 17-10665

Document: 00515724627

Page: 10

Date Filed: 01/28/2021

No. 17-10665

To establish a conspiracy to commit health care fraud, the government
must prove beyond a reasonable doubt that (1) two or more individuals made
an agreement to pursue the unlawful offense of fraud; (2) the defendant knew
of the agreement; and (3) the defendant voluntarily participated. 18 U.S.C.
§§ 1347,1349; United States v. Imo, 739 F.3d 226, 235 (5th Cir. 2014). The
agreement may be silent and informal. Id. Further, “voluntary participation
may be inferred from a collection of circumstances, and knowledge may be
inferred from surrounding circumstances.” Id. (internal citation omitted).
For these purposes, “health care benefit program” is defined as “any
public or private plan or contract, affecting commerce, under which any
medical benefit, item, or service is provided to any individual, and includes
any individual or entity who is providing a medical benefit, item, or service
for which payment may be made under the plan or contract.” 18 U.S.C. §
24(b).
The health care fraud statute states, in relevant part, that “ [w]hoever
knowingly and willfully executes, or attempts to execute, a scheme or
artifice—(1) to defraud any health care benefit program; or (2) to obtain, by
means of false or fraudulent pretenses, representations, or promises, any of
the money or property” of any health care benefit program “in connection
with the delivery of or payment for health care benefits, items, or services”
commits health care fraud. 18 U.S.C. § 1347(a). Further, subsection (b)
states that “ [w]ith respect to violations of this section, a person need not have
actual knowledge of this section or specific intent to commit a violation of
this section.” 18 U.S.C. § 1347(b).
Both conspiracy and health care fraud “require proof of knowledge
and specific intent to defraud.” United States v. Willett, 751 F.3d 335, 339
(5th Cir. 2014). “However, this proof may be inferred from circumstantial
evidence.... Furthermore, a defendant need not have actually submitted the

10

Case: 17-10665

Document: 00515724627

Page: 11

Date Filed: 01/28/2021

No. 17-10665

fraudulent documentation ... in order to be guilty of health care fraud or
conspiracy to commit health care fraud.” Id. (internal marks and citations
omitted). The government does not have to prove that a defendant knew that
the purpose of the agreement was an actual violation of a statute. The
government must prove that the defendant knew the purpose of the
agreement and must prove that the purpose was unlawful. United States v.
Brooks, 681 F.3d 678, 699 (5th Cir. 2012). “Conspiracy actually has two
intent elements—intent to further the unlawful purpose and the level of
intent required for proving the underlying substantive offense.” Id.
However, these two intents “often functionally collapse into a single intent. ”
Id. at n.16 (citing United States v. Chagra, 807 F.2d 398, 401 (5th Cir. 1986)).
The evidence introduced at trial established that Roy provided money
for the operation of Apple in exchange for 50 percent of the profits. Roy’s
principal duty was to certify POCs. Stiger and Veasey retained 50 percent of
Apple’s profits because they were responsible for finding patients. Veasey
recruited patients throughout the community, at times pretending to be a
preacher. Stiger was Apple’s administrator and would recruit patients
throughout the community via word-of-mouth. Roy’s employees testified
that Roy did not always review the POCs before they signed his name to
them, up to 100 a day, as he authorized them to do. This evidence was
sufficient to establish the elements of conspiracy to commit health care fraud.
With regard to the substantive counts, the patient from Count 2
testified that she met Veasey while walking home from a dollar store. The
patient for Count 3 testified he signed up for home health simply because his
wife did. That patient’s wife, from Count 4, testified that she.signed up after
Veasey came to the door dressed like a preacher and told her about home
health. Despite the patient believing she would not qualify and the fact that
she got around without any sign of immobility, Roy signed her POC. The
patient from Count 7 was signed up by a co-conspirator not a party to this

li

Case: 17-10665

Document: 00515724627

Page: 12

Date Filed: 01/28/2021.

No. 17-10665

appeal and her own physician testified she did not qualify for home health.
The patient from Count 8 testified that he was spending days at The Bridge,
a homeless shelter, when he was recruited by Eleda and certified for home
health by Roy. The administrator from the shelter testified that individuals
staying there had to be able to take care of themselves. That patient’s POC
falsely stated he had an amputation. The patient from Count 9 also stayed at
The Bridge when he was recruited, and his POC falsely stated he wasincontinent. The patient from Count 10 also stayed at The Bridge but would
often take the train in the morning from Dallas to Fort Worth to go to the
mall and go sightseeing. The doctor from the shelter’s clinic testified that
she would not qualify as homebound. The patient from Count 11 said Eleda
recruited him and paid him for signing up. Roy certified him and his POC
included false information about bowel and bladder complications.
Under 18 U.S.C. § 1035, an individual is guilty of making false
statements related to health care matters when he “knowingly and
willingly—(1) falsifies, conceals, or covers up by any trick, scheme, or device
a material fact; or (2) makes any materially false, fictitious, or fraudulent
statements or representations, or makes or uses any materially false writing
or document” containing such matters involving a health care benefit
program. 18 U.S.C. § 1035(a).
Roy argues that there was no false statement because he “kept billing
with his PIN number suspended and the other providers provided the
medical care to the patients under their numbers with the new group. ” Also,
Roy argues, “No false address or false information provided to Medicare.
There was no evidence anywhere in the records that [he] was involved with
the medical care for Count 15 and 16.” Roy further asserts that he did not
attempt to circumvent the suspension because he did not receive any money
from Medicare.

12

Case: 17-10665

Document: 00515724627

Page: 13

Date Filed: 01/28/2021

No. 17-10665

After Medistat was suspended by Medicare, Roy created a new entity,
Medcare HouseCalls, obtained a new billing identification number and
continued billing Medicare for Medistat patients. Those patients pertain to
Counts 15 and 16.
The offense of obstruction, in this context, provides that an individual
“with intent to avoid, evade, prevent, or obstruct compliance, in whole or in
part,” with an investigation who “willfully withholds, misrepresents,
removes from any place, conceals, covers up, destroys, mutilates, alters, or
by other means falsifies any documentary material, answers to written
interrogatories, or oral testimony, which is the subject of such demand; or
attempts to do so or solicits another to do so,” commits the offense of
obstruction. 18 U.S.C. § 1505. Obstruction may also be committed by threats
or force. Id.
Roy asserts that there was no obstruction, as charged in Count 17.
Further, Roy argues the government’s witness, Scott Ward, testified that he
stopped the audit because the OIG told him to, not because Roy obstructed
the investigation. Actually, Ward also said that they were unable to complete
the audit in part because they were unable to access the records at Medcare
HouseCalls.
The government charged Roy with obstruction based on the creation
and use of Medcare HouseCalls to circumvent Medistat’s suspension for
fraud. Special Agent Miranda Bennett provided testimony to support this
offense.
A review of the record in this matter indicates that there was sufficient
evidence to support Roy’s convictions for conspiracy to commit health care
fraud, health care fraud, false statements and obstruction.

13

Case: 17-10665

Document: 00515724627

Page: 14

Date Filed: 01/28/2021

No. 17-10665

Stiger - Count 1
Stiger asserts that the district court erred in failing to grant her motion
for judgment of acquittal under Rule 29 because the evidence was insufficient
to support a finding beyond a reasonable doubt on all three elements of
conspiracy to commit health care fraud. See Fed. R. Crim. P. 29. Stiger
asserts that, because she was indicted only for conspiracy and not for any
substantive counts of fraud, the government’s evidence did not sufficiently
prove the element that she agreed to commit health care fraud. Stiger cites
United States v. Ganji, 880 F.3d 760,767-773 (5th Cir. 2018), for support.
In Ganji, this court reversed a doctor’s conviction of conspiracy to
commit health care fraud because the circumstantial evidence was
insufficient to establish a concert of action to prove an agreement. Id. at 76869. The court said, “when proving an agreement exists by using the concert
of action theory, the Government must present evidence of the conspirators’
individual actions that, taken together, evidence an agreement to commit an
unlawful objective beyond a reasonable doubt.” Id. This court concluded
that witnesses admitted their own fraud but did not implicate Ganji. Id. at
770. Unlike Ganji, Stiger was indeed implicated.
Stiger asserts that the testimony from nurses who worked at Apple
that Stiger overruled their decisions on whether to admit patients to home
health care or discharge them, at most, shows a simple disagreement.
However, this is essentially Stiger arguing that the jury should have believed
her theory over the government’s theory. That does not establish
insufficiency of the evidence. Also, those nurses testified that Stiger was
undermining their professional judgment and overriding their nursing
decisions. Stiger also asserts that the testimony she reimbursed an employee
who provided groceries, pest control services, or payment of utility bills to
patients who needed those services indicated she just wanted patients to have

14

Case: 17-10665

Document: 00515724627

Page: 15

Date Filed: 01/28/2021

No. 17-10665

those services, which she claims would be medically necessary, and not that
she sought reimbursement of those amounts from Medicare. Further, Stiger
asserts that the agreement between Roy, Veasey and herself to provide funds
for the operation of Apple was a legitimate loan.
Stiger also argues that, regardless of whether there was a discussion
about “ping-ponging,” James Aston admitted that no patients were pingponged between his agency and Stiger’s agency. Aston was a former
employee of Roy who eventually opened his own HHA, Provider Texas
Home Health, with a loan from Roy. Aston testified about attending a
conference with Roy and Stiger and a discussion about bouncing patients
back and forth between Provider Texas and Apple so that patients could
continue receiving services. While Aston did admit that there was no “pingponging” between Provider Texas, which only operated for six months
serving Roy’s patients and never became certified, and Apple, he did not
state that there was no “ping-ponging” between Apple and any other HHAs.
Moreover, the fact that it did not happen with Provider Texas in no way
establishes that the agreement or discussion did not exist.
The record in this matter likewise establishes that the evidence was
sufficient to support Stiger’s conviction for conspiracy to commit health care
fraud.
in. Whether Roy can establish prosecutorial misconduct.
We review unpreserved claims of prosecutorial misconduct for plain
error, i.e., Roy must show an error that is plain and that affects his substantial
rights. United States v. Bennett, 874 F.3d 236,247-48. If Roy is able to do so,
then “we may exercise our discretion to correct the error if it seriously affects
the fairness, integrity, or public reputation of judicial proceedings.” Id.
(internal marks omitted).

15

Case: 17-10665

Document: 00515724627

Page: 16

Date Filed: 01/28/2021

No. 17-10665

Roy asserts multiple claims of prosecutorial misconduct, including
whether: (A) the prosecution knew or should have known that the testimony
of co-conspirator Cyprian Akamnonu, who is not part of this appeal, was
perjured and was material; (B) the failure to produce in evidence the content
of the Lytec program constituted a due process violation and legal prejudice;
(C) the prosecution violated Roy’s right to due process by creating
deceptions to mislead the jury; and (D) the prosecution improperly argued
burden shifting at closing.
Specifically, Roy argues that Akamnonu lied when he testified that he
never forged Roy’s signature. However, Roy argued this claim at trial and
unsuccessfully tried to convince the jury that Roy did not sign the POCs with
regard to Ultimate, the HHA with which Akamnonu was affiliated. The mere
fact that this strategy did not work does not establish perjury, reversible error
or prosecutorial misconduct. Roy also asserts that the government knew or
should have known that HHAs could bill and get paid by Medicare without a
signed POC. Roy is referencing Akamnonu’s statement that “ [i]f he doesn’t
sign the 485, then [Ultimate] can’t bill” Medicare. Roy argues that the
defense proved Ultimate did get paid without a signed 485. However, the
testimony Roy references established that Ultimate was able to see a patient
and bill Medicare without a signed 485, not that Ultimate received payment
in full from Medicare for that patient. Roy fails to establish that the
prosecution “brainwashed” the jury into believing any knowingly false
statements or perjury.
Roy next asserts that the government failed to introduce into evidence
the content of the Lytec program, the medical practice management software
and database used by Roy’s practice. Miranda Bennett, a special agent with
HHS-OIG, and Drews testified that they imaged Medistat’s computers
containing the Lytec program and data. Roy argues the seized evidence was
not opened and not analyzed because the government did not have a license

16

Case: 17-10665

Document: 00515724627

Page: 17

Date Filed: 01/28/2021

No. 17-10665

to use the software. Actually, the testimony was that the government imaged
the data, but could not utilize it in the same way as Medistat because the
government did not have a license for the software. Moreover, Roy fails to
cite any authority establishing that the government had a duty to introduce
the Lytec data. Additionally, Roy had the Lytec data and could have
introduced it himself. Thus, again Roy fails to establish error.
Roy next argues that the government “created deceptions, conviction
traps, cunning play on words to incite the convictions by depicting the jury’s
decision toward a seeming obvious choice in favor of the prosecution by
corrupting the facts and subverting the proceedings.” He then points to
various statements that he takes issue with and claims are deceptions. But
the record does not support his claims and he fails to establish error.
Finally, Roy argues that prosecutorial misconduct is established
through the burden shifting during closing argument when the government
referenced the fact that all of its medical professionals testified that the
patients at issue were not homebound. Roy claims that statement improperly
shifted the burden onto him to present a witness to establish the patients were
homebound. He is mistaken. The government was summing up the evidence
it had presented. Again, he fails to establish error.
For these reasons, Roy is unable to establish plain error on his claims
of prosecutorial misconduct.
IV. Whether Roy can show plain error of constructive amendment to the
indictment.
Roy failed to preserve this claim, so we review for plain error. United
States v. McGilberty, 480 F.3d 326, 331 (5th Cir. 2007). Roy asserts that the
government was allowed to constructively amend the indictment by inciting
and compelling the jury to convict him for Medicare fraud because he was

17

Case: 17-10665

Document: 00515724627

Page: 18

Date Filed: 01/28/2021

No. 17-10665

not reviewing the POCs, which was not included as an element of fraud in
the indictment.
A broadening of the indictment can be explicit, implicit or
constructive. United States v. Doucet, 994 F.2d 169,172 (5th Cir. 1993). “To
be a constructive amendment, a jury charge must permit the jury ‘to convict
on an alternative basis permitted by the statute but not charged in the
indictment. ’ ” United States v. Griffin, 800 F.3d 198,202 (5th Cir. 2015). “A
constructive amendment occurs when it permits the defendant to be
convicted upon a factual basis that effectively modifies an essential element
of the offense charged or permits the government to convict the defendant
on a materially different theory or set of facts than that with which [he] was
charged.” United States v. McMillan, 600 F.3d 434, 451 (Sth Cir. 2010)
(internal quotations and citations omitted).
The indictment charged Roy with billing for services he did not
perform, and that was established by the evidence. Roy fails to even allege
anything that would constitute an amendment of the indictment or that
modified any element of the offense charged. He, again, merely takes issue
with some of the evidence introduced at trial. Roy was not convicted “on a
materially different theory or set of facts than that with which [he] was
charged. ” Id. Because we find no plain error, this issue is without merit.
V. Whether the district court erred or abused its discretion with regard
to jury instructions.
Roy asserts that the trial court erred by including civil regulations in
the jury instructions and abused its discretion by failing to give his requested
limiting instruction. Specifically, Roy argues that the inclusion of the
definition of “homebound” from the Medicare regulation “poisoned the
proceedings” by causing the jury to focus on the civil regulations rather than
the criminal statute. Further, he argues that the court abused its discretion

18

Case: 17-10665

Document: 00515724627

Page: 19

Date Filed: 01/28/2021

No. 17-10665

by denying his requested instruction referencing United States v. Christo, 614
F.2d 486,490-92 (5th Cir. 1980).
We review a court’s failure to give a limiting instruction for an abuse
of discretion. Into, 609 F.3d at 233. Further:
Reversal is proper only if the requested instruction (1) was a
substantially correct statement of the law, (2) was not
substantially covered in the charge as a whole, and (3)
concerned an important point in the trial such that the failure
to instruct the jury on the issue seriously impaired the
defendant’s ability to present a given defense.
Id. (internal citation and marks omitted).
Roy sought the following jury instruction: “Any violations of a civil
Medicare or Medicaid regulation, if such violations indeed occurred, are not
considered criminal offenses. You are only to decide whether the
government has proved beyond a reasonable doubt that the Defendant
committed a criminal offense charged in the indictment. ”
Roy argues that, like in Christo, the civil standards were equated with
the criminal standards by the inclusion of the definition from the Medicare
regulations. However, Roy admits that the holding in Christo was “that the
government may not prove a criminal case violation of federal banking law
solely by proving a violation of a civil banking regulation.” (Roy Br. at 31).
In Christo, the government’s case centered on violations of a regulatory
banking statute. 614 F.2d at 489. Here, unlike Christo, the government did
not attempt to prove a criminal violation solely by proving a violation of a civil
regulation.
Additionally, a review of the instruction regarding “homebound”
indicates that it provided clarity and in no way indicates that it would have
caused the jurors to focus on the civil regulations rather than the crimes
alleged. In fact, portions of the “homebound” discussion clearly aided Roy

19

Case: 17-10665

Document: 00515724627

Page: 20

Date Filed: 01/28/2021

No. 17-10665

by explaining that patients can still be considered homebound even if they are
able to and do leave home periodically for various reasons. Further, the
instructions as a whole clearly instructed jurors to consider only the crimes
charged and fully explained the elements the government must prove beyond
a reasonable doubt. This court found no abuse of discretion in Imo, 739 F.3d
at 233-34, for these same reasons.
Thus, this claim is without merit.
VI. Whether the district court plainly erred when it allowed lay
testimony from witnesses regarding the Medicare program.
This court typically reviews rulings on the admission of lay person and
expert testimony for an abuse of discretion. However, as this claim is
unpreserved, we review for plain error. See United States v. Caldwell, 586
F.3d 338,341 (5th Cir. 2009).
Roy asserts that the district court committed plain error by allowing
lay witnesses to offer testimony expressing a flawed interpretation of
“homebound” in contradiction to the Medicare regulation which required
the requisite knowledge and in violation of Rules 701 and 702 of the Federal
Rules of Evidence. Rule 701 states:
If a witness is not testifying as an expert, testimony in .
the form of an opinion is limited to one that is:
(a) rationally based on the witness’s perception;
(b) helpful to clearly understanding the witness’s
testimony or to determining a fact in issue; and
(c) not based on scientific, technical, or other
specialized knowledge within the scope of Rule 702.
Fed. R. Evid. 701.
This court has said that “[t]he distinction between lay and expert
witness testimony is that lay testimony results from a process of reasoning

20

Case: 17-10665

Document: 00515724627

Page: 21

Date Filed: 01/28/2021

No. 17-10665

familiar in everyday life, while expert testimony results from a process of
reasoning which can be mastered only by specialists in the field. ” Ebron, 683
F.3d at 136-37 (internal marks and citations omitted).
Roy first cites the “false narrative scripted by the prosecution” in the
government’s opening statement. That, of course, is not testimony. Then
Roy cites to the testimony of various doctors of specific patients whom Roy
had certified for home health, including: (1) Dr. Muhammad Nasir, who
described his understanding of homebound as “ [b]asically, the patient is
homebound status where they cannot come to visit their primary care
physician in the clinic . . .”; (2) Dr. Michael Muncy, who did not recall
specifics of a particular patient without referring to the medical record and
said he was not particularly familiar with the details of the requirements for
someone to be certified for home health care; (3) Dr. Minaj Kahn, who said
he did not prescribe home health to a specific patient in 2011 because he did
not believe the patient qualified for it; and (4) Dr. Cornelia Tan, who said
that she did not consider a specific patient to be homebound.4
However, in each instance, defense counsel was able to do extensive
cross-examination to clarify any definitions, to point out that witness’
unfamiliarity with the regulation, have the witness read the actual regulation
and recite what it says, specify time periods, and correct any possible
confusion that Roy believes may have resulted from any testimony.
Moreover, Roy fails to point to any testimony from any of these witnesses
claiming to be an expert on Medicare regulations. Additionally, as previously
discussed, the relevant Medicare regulations were provided to the jury.

4 The government’s briefed response to this discusses two other witnesses, Mark
Porter and Lisa Garcia, who testified generally regarding the Medicare program guidelines
and processes. The government provided pretrial notice of its intent to call these two
witnesses. However, it does not appear that Roy is taking issue with these witnesses.

21

Case: 17-10665

Document: 00515724627

Page: 22

Date Filed: 01/28/2021

No. 17-10665

For these reasons, Roy is unable to establish plain error.

VII. Whether the district court erred in determining the loss amount;
whether the district court erred in applying the four-point enhancement
under U.S.S.G. § 2Bl.l(b)(7)(iii) to Veasey; and whether the sentences
were procedurally and substantively unreasonable.
Veasey asserts that his sentence is based upon an erroneous loss
calculation of $23,630,377.26. Roy asserts that his sentence was based upon
an erroneous loss calculation of $268,147,699.15.
We review the district court’s finding regarding the amount of loss
for clear error, but we review the district court’s method for determining that
amount de novo. United States v. Harris, 821 F.3d 589, 601 (5th Cir. 2016).
The district court need only make “a reasonable estimate of the loss,” based
on its assessment of the evidence and its “loss determination is entitled to
appropriate deference.” United States v. Hebron, 684 F.3d 554,560 (5th Cir.
2012); U.S.S.G. § 2B1.1, cmt. 3(C). We will not overturn these factual
findings as long as they are “plausible in light of the record as a whole.”
United States v. Sanders, 343 F.3d 511,520 (5th Cir. 2003).
For purposes of the guidelines, “loss is the greater of actual loss or
intended loss.” U.S.S.G. § 2B1.1 cmt. n.3(A). Actual loss “means the
reasonably foreseeable pecuniary harm that resulted from the offense.” Id.
cmt. n.3(A)(i). Intended loss, on the other hand, “means the pecuniary harm
that the defendant purposely sought to inflict.” Id. cmt. n.3(A)(ii).
We review the district court’s interpretation and application of the
Guidelines de novo and its factual findings for clear error. United States v.
Trujillo, 502 F.3d 353, 356 (5th Cir. 2007). We review an appellant’s claim
that a sentence is substantively unreasonable for an abuse of discretion.
United States v. Scott, 654 F.3d 552,555 (5th Cir. 2011); see also Gall v. United

22

Case: 17-10665

Document: 00515724627

Page: 23

Date Filed: 01/28/2021

No. 17-10665

States, 552 U.S. 38, 51 (2007). This review is “highly deferential, because
the sentencing court is in a better position to find facts and judge their import
under the § 3553(a) factors with respect to a particular defendant. ” Scott 654
F.3d at 555.
A sentence within the Guidelines range is presumptively reasonable,
and this presumption is rebutted only if the appellant demonstrates that the
sentence does not account for a factor that should receive significant weight,
gives significant weight to an irrelevant or improper factor, or represents a
clear error of judgment in balancing sentencing factors. United States v.
Cooks, 589 F.3d 173,186 (5th Cir. 2009).
With Veasey, the district court adopted the loss calculation in 30 of
the PSR of $23,630,377.26.
This put Veasey under U.S.S.G. §
2Bl.l(b)(l)(K) and required an increase of 20 because the loss was over
$9,500,000 and less than $25,000,000.
Veasey asserts that, according to the PSR, there were only three
specific claims that Apple billed fraudulently for $2,996.74, $1,815.27 and
$1,196.74, totaling $6,009.22 for those three patients. Thus, because the loss
is under $6,500, Veasey argues that there should be no increase under
U.S.S.G. § 2Bl.l(b)(l)(A).
Veasey then makes an alternative argument based on his admission
that 30 of his PSR states that Apple billed Medicare $9,282,690.07 and
Medistat billed Medicare $1,088,495.74 on behalf of Apple’s patients.
Veasey argues that Apple was paid only $8,753,055.84 in fraudulent claims,
and Roy was paid $631,064.78 in fraudulent claims by Apple. Veasey asserts
the court should combine those two amounts for a loss calculation of
$9,384,120.62, which would fall under U.S.S.G. § 2Bl.l(b)(l)(J) and require
an 18-level increase if the loss is more than $2,500,000 but less than
$9,500,000. U.S.S.G. § 2Bl.l(b)(l)(J).

'23

Case: 17-10665

Document: 00515724627

Page: 24

Date Filed: 01/28/2021

No. 17-10665

Veasey’s assertions fail to take into account the additional
$14,246,656.64 Medistat received pursuant to this conspiracy. Veasey relies
on Bennett’s testimony that he was not present during the “ping-pong”
discussion. However, that was only a minor part of the entire conspiracy with
which Veasey was involved. Further, other evidence indicates that Veasey
was aware of the “ping-pong” plan.
Veasey is unable to establish that the district court’s estimate of the
loss was unreasonable. Hebron, 684 F.3d at 560. Further, the district court’s
findings are plausible in light of the record as a whole. Sanders, 343 F.3d 520.
For these reasons, the district court did not err.
Veasey also asserts that the district court erred by applying the fourpoint enhancement under U.S.S.G. § 2Bl.l(b)(7)(iii), which states: “If (A)
the defendant was convicted of a Federal health care offense involving a
Government health care program; and (B) the loss under subsection (b)(1) to
the Government health care program was ... (iii) more than $20,000,000,
increase by 4 levels.” U.S.S.G. § 2B1.1(b)(7)(iii). Because the district court
did not err in its calculation of loss, Veasey is likewise unable to establish
error on this issue.
Veasey’s argument that his sentence was procedurally or
substantively unreasonable is based solely on his argument that the loss
calculation was erroneous. He is unable to establish any error or abuse of
discretion.
Roy asserts that his “sentence was procedurally unreasonable due to
error in calculation of actual and intended loss based on false and unreliable
information in the PSR relating the amount of Medicare billings reported by
the HHAs relevant to Dr. Roy’s certifications which was false, large amount
was not relevant to Dr. Roy.” Roy appears to be arguing that he was not

24

Case: 17-10665

Document: 00515724627

Page: 25

Date Filed: 01/28/2021

No. 17-10665

aware of what the HHAs were doing. However, the record does not support
that claim.
Further, Roy asserts that “[i]t was clear error in calculation of the
actual loss and the intended loss amount based on all the certifications from
Dr. Roy were fraudulent due to the creation of the 485 department and the
POCs were not reviewed and signed by Dr. Roy. ” Roy then basically argues
that the evidence presented at trial was false, that the services and tests he
provided were medically necessary, that not all of the patients were not
homebound, that the fact that the government dismissed Count 5 and he was
acquitted of Count 6 indicate a finding that across-the-board fraud cannot be
sustained in this case, and takes particular issue with the Ultimate
certifications being considered relevant to him. However, again, the record
does not support this.
Accordingly, these issues are without merit.
VIH. Whether Roy, Stiger and Veasey can show error in the
district court’s restitution awards.
We review preserved error as to the quantum of an award of
restitution for abuse of discretion. United States v. Sharma, 703 F.3d 318,322
(5th Cir. 2012). Absent an objection, we review for plain error. United States
v. De Leon, 728 F.3d 500, 507 (5th Cir. 2013). A district court’s factual
findings are reviewed for clear error. Sharma 703 F.3d at 322. “A factual
finding is clearly erroneous only if based on the record as a whole, we are left
with the definite and firm conviction that a mistake has been committed.”
Id. (internal marks and citation omitted). “We may affirm in the absence of
express findings if the record provides an adequate basis to support the
restitution order. ” Id. (internal marks and citation omitted).
Under the MVRA, the district court is required to award restitution
to victims “directly and proximately harmed” by a defendant’s offense, as

25

Case: 17-10665

Document: 00515724627

Page: 26

Date Filed: 01/28/2021

No. 17-10665

long as the court does not award a windfall greater than the victim’s actual
loss. De Leon, 728 F.3d at 506. “ The government has the burden of proving
a victim's actual losses.” Id.
Roy asserts that the district court abused its discretion by assessing
restitution in the amount of $268,147,699.15 “[f]or the same reason the
court’s loss calculation was erroneous, its restitution order also was
erroneous including amounts not relevant to Dr. Roy for the actual loss.”
Roy was unable to establish error in loss calculation and is unable to establish
an abuse of discretion here.
Veasey also asserts the same arguments here as he did for the loss
calculation. For the same reasons those arguments failed there, Veasey is
unable to establish an abuse of discretion or clear error here.
Stiger asserts that the district court clearly erred by not reducing her
restitution by 50 percent based on Dupon’s testimony that 50 percent of
Apple patients during her tenure were qualified for home health care.5
Accordingly, Stiger asserts that her restitution amount should have been
reduced from $23,630,777.26 to $11,815,388.63.
During trial, Dupon was asked: “Looking back at your time at Apple,
can you give a reasonable approximation of the number of patients that
qualified for Medicare home health care?” Dupon replied: “About 50. 50
percent.” That brief mention of her belief as to an approximate number is
hardly sufficient to rebut the evidence of loss presented at trial, or to establish
clear error or an abuse of discretion.

5 Stiger mentions that counsel’s objection to the PSR may have been based on the
fact that she was co-owner of Apple with Veasey. While Stiger does not argue that now, it
would likewise fail to establish clear error or an abuse of discretion.

26

Case: 17-10665

Document: 00515724627

Page: 27

Date Filed: 01/28/2021

No. 17-10665

Stiger also asserts that she should not be held jointly and severally
liable for restitution incurred by other defendants unrelated to Apple based
upon Honeycutt v. United States, 137 S.Ct. 1626 (2017). Stiger concedes that
Honeycutt applied only to forfeiture. But Stiger states that she is raising the
issue in the event Honeycutt is applied to restitution during the pendency of
this appeal, for such a ruling by this court, or to preserve it for possible
Supreme Court review. We decline to apply Honeycutt here. Not only did
Honeycutt have to do with forfeiture, it had to do with forfeiture of substitute
property when the tainted property itself was not available. Id. at 1634-35.
That is nothing like restitution, which has to do with actual loss. Further,
Honeycutt did not alter or overrule liability under Pinkerton v. United States,
328 U.S. 640 (1946). In fact, in response to the government’s argument that
Congress must be presumed to have legislated against the background
principles of conspiracy liability, the Supreme Court said that the “plain text
and structure” of the statute in question “leave no doubt that Congress did
not incorporate those background principles.” Honeycutt, 137 S.Ct. at 1634.
For these reasons, we find no error.
IX. Whether Stiger and Eleda can establish that Standard Condition of
Supervised Release No. 6 is unreasonably broad.
Stiger and Eleda both assert that one of the conditions of their
supervised release is unreasonably broad. The condition at issue here,
Standard Condition of Supervised Release No. 6, states: “You must allow
the probation officer to visit you at any time at your home or elsewhere, and
you must permit the probation officer to take any items prohibited by the
conditions of your supervision that he or she observes in plain view. ”
In United States v. Duke, 788 F.3d 392,398 (5th Cir. 2015), this court
said:

27

Case: 17-10665

Document: 00515724627

Page: 28

Date Filed: 01/28/2021

No. 17-10665

A district court has wide, but not unfettered, discretion
in imposing terms and conditions of supervised release. A
district court s discretion is curtailed by statute in two ways.
First, the condition of supervised release must be reasonably
related to one of four statutory factors: (1) the nature and
characteristics of the offense and the history and
characteristics of the defendant; (2) the need for deterrence of
criminal conduct; (3) the need to protect the public from
further crimes of the defendant; and (4) the need to provide the
defendant with vocational training, medical care, or other
correctional treatment. Second, the condition must be
narrowly tailored such that it does not involve a greater
deprivation of liberty than is reasonably necessary to fulfill the
purposes set forth in [18 U.S.C.] 3553(a). Moreover, the
sentence should consider the policy statements issued by the
Sentencing Commission.
Id. at 398 (internal marks and citations omitted); see also 18 U.S.C. § 3583.
Neither Eleda nor Stiger objected, thus review is for plain error.
This court recently concluded that a district court did not abuse its
discretion by imposing that very condition. See United States v. Payton, 959
F.3d 654, 656, 658 (5th Cir. 2020). Thus, Eleda and Stiger are unable to
establish error, plain or otherwise.
X. Whether Roy can establish cumulative error.
Roy asserts that if the court does not find that reversal is warranted on
other grounds, then the cumulative effect of all of the errors at trial warrant
a new trial. Roy cites United States v. Eghobor, 812 F.3d 352 (5th Cir. 2015),
as support. In Eghobor, we said: “The cumulative error doctrine provides
that an aggregation of non-reversible errors (i.e., plain errors failing to
necessitate reversal and harmless errors) can yield a denial of the
constitutional right to a fair trial, which calls for reversal.” Id. at 361. As
there are no plain or harmless errors here, there can be no cumulative error.

28

Case: 17-10665

Document: 00515724627

Page: 29

Date Filed: 01/28/2021

No. 17-10665

CONCLUSION
For these reasons, we AFFIRM the judgments in the district court as
to all appellants.

29

